                     U.S. ENVIRONMENTAL PROTECTION
                     AGENCY
                     OFFICE OF INSPECTOR GENERAL




                     EPA Needs to Improve Its
                     Process for Accurately
                     Designating Land as Clean
                     and Protective for Reuse
                     Report No. 14-P-0364            September 29, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                 Christina Lovingood
                                                     Patrick Milligan
                                                     Chad Kincheloe
                                                     Anne Bavuso
                                                     Bakari Baker
                                                     Kate Robinson
                                                     Roopa Batni-Mulchandani




Abbreviations

ACRES          Assessment, Cleanup, and Redevelopment Exchange System
CERCLA         Comprehensive Environmental Response, Compensation and Liability Act
CPRM           Cross-Program Revitalization Measures
EPA            U.S. Environmental Protection Agency
FY             Fiscal Year
OIG            Office of Inspector General
OSWER          Office of Solid Waste and Emergency Response
PFP            Protective for People
RAU            Ready for Anticipated Use
RCRA CA        Resource Conservation and Recovery Act Corrective Action
RCRAInfo       RCRA’s database
UST            Underground Storage Tank


 Are you aware of fraud, waste or abuse in an           EPA Office of Inspector General
 EPA program?                                           1200 Pennsylvania Avenue, NW (2410T)
                                                        Washington, DC 20460
 EPA Inspector General Hotline                          (202) 566-2391
 1200 Pennsylvania Avenue, NW (2431T)                   www.epa.gov/oig
 Washington, DC 20460
 (888) 546-8740
 (202) 566-2599 (fax)
 OIG_Hotline@epa.gov                                    Subscribe to our Email Updates
                                                        Follow us on Twitter @EPAoig
 More information at www.epa.gov/oig/hotline.html.      Send us your Project Suggestions
                        U.S. Environmental Protection Agency                                               14-P-0364
                                                                                                   September 29, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review             EPA Needs to Improve Its Process for Accurately
                                   Designating Land as Clean and Protective for Reuse
The purpose of this evaluation
was to determine whether the
U.S. Environmental Protection       What We Found
Agency’s (EPA’s) designation
of sites that have achieved the    The EPA has limited controls for verifying or       The EPA’s lack of controls
“protective for people” and/or     testing the accuracy of CPRM information that       over designating sites as
“ready for anticipated use”        states and grantees provide to show sites are       protective and ready for reuse
                                   protective for people and RAU. The EPA also         calls into question the
(RAU) performance measures
                                   does not have adequate controls to verify that      reliability and value of the
include effective controls to                                                          designations for protecting
ensure long-term protection to     these designations continue to be valid and the
                                                                                       human health.
human health and the               sites remain protective in the long term.
environment.
                                   The Resource Conservation and Recovery Act Corrective Action (RCRA CA)
A primary goal of the EPA’s        program does not require documentation to support the designations. The EPA
Office of Solid Waste and          could not obtain supporting documentation for six of the 16 reuse designations
Emergency Response                 we reviewed. While the Brownfields program does receive the supporting
(OSWER) is to ensure that the      documentation, it does not sufficiently review the documentation to verify
cleanup of contaminated sites      accuracy. We could not verify the accuracy of the reuse designation for 10 of 32
is protective of human health      Brownfields sites we examined. Three of these Brownfields sites were
and the environment. OSWER         prematurely designated as RAU. These sites had asbestos contamination
developed the Cross-Program        cleaned up after they were designated as RAU.
Revitalization Measures
(CPRM) to promote and              The Underground Storage Tank (UST) program has the fewest EPA controls for
communicate its cleanup            accurate RAU site designations, even though UST sites represent 99 percent of
accomplishments and benefits       the more than 400,000 sites the EPA has designated as RAU. States submit the
of restoring contaminated          number of UST RAU sites to EPA, but not names or supporting documentation.
properties to environmental and    Further, states do not provide information on whether institutional controls are
economic vitality.                 needed at the sites, but the EPA’s definition of RAU indicates it is improper to
                                   provide an RAU designation without knowing if institutional controls are needed.
This report addresses the
following EPA goal or              Given that nearly all the EPA’s RAU designations are at UST sites and that the
cross-agency strategy:             EPA inaccurately designated sites as RAU or failed to support some of the
                                   Brownfields and RCRA CA designations, the reliability and value of the RAU
  Cleaning up communities         measure are marginal. This creates the risk that the designations may not be
   and advancing sustainable       sufficiently protective of human health, which is even more important when
   development.                    considering some of these sites may be reused as playgrounds, schools or child
                                   care facilities. Also, the EPA’s public reports may contain unreliable information
Send all inquiries to our public   on site conditions.
affairs office at (202) 566-2391
or visit www.epa.gov/oig.           Recommendations and Agency Corrective Actions
The full report is at:             We recommend that the OSWER Assistant Administrator improve controls over
www.epa.gov/oig/reports/2014/
                                   its guidance, review and reporting of the CPRM measures. The agency agreed
20140929-14-P-0364.pdf
                                   with two recommendations but disagreed with the remaining three
                                   recommendations, and resolution efforts are in progress.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                  THE INSPECTOR GENERAL




                                          September 29, 2014

MEMORANDUM

SUBJECT:       EPA Needs to Improve Its Process for Accurately Designating Land as
               Clean and Protective for Reuse
               Report No. 14-P-0364

FROM:          Arthur A. Elkins Jr.

TO:            Mathy Stanislaus, Assistant Administrator
               Office of Solid Waste and Emergency Response

This is our report on the subject evaluation conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by EPA managers in accordance with established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this report
within 60 calendar days. You should include planned corrective actions and completion dates for all
unresolved recommendations. Your response will be posted on the OIG’s public website, along with our
memorandum commenting on your response. Your response should be provided as an Adobe PDF file
that complies with the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as
amended. The final response should not contain data that you do not want to be released to the public;
if your response contains such data, you should identify the data for redaction or removal along with
corresponding justification.

We will post this report to our website at http://www.epa.gov/oig.
EPA Needs to Improve Its Process for Accurately                                                                            14-P-0364
Designating Land as Clean and Protective for Reuse




                                   Table of Contents

 Chapters
   1     Introduction ......................................................................................................     1

                 Purpose .....................................................................................................   1
                 Background................................................................................................      1
                 Scope and Methodology ............................................................................              5

   2   EPA’s Performance Measures for Some Cleanup Programs Missing
       Needed Controls to Ensure Long-Term Protection of Human Health .............                                              7

                 EPA Has Limited Controls to Assure Accurate
                    Initial Site Designations as PFP and RAU ...........................................                         8
                 EPA Has Limited Controls for Identifying Changes in
                    Site Conditions and Uses in the Long Term ........................................                           10
                 EPA Can Improve Controls by Finalizing CPRM Interim Guidance ............                                       13
                 Conclusions ...............................................................................................     14
                 Recommendations .....................................................................................           14
                 Summary of Agency Response to Draft Report and OIG Evaluation ..........                                        15

   Status of Recommendations and Potential Monetary Benefits .............................                                       16



Appendices
   A     Agency Response to Draft Report and OIG Evaluation .................................                                    17

   B     Distribution .......................................................................................................    25
                                  Chapter 1
                                   Introduction
Purpose
            We sought to determine whether the U.S. Environmental Protection Agency’s
            (EPA’s) designation of assessed and cleaned-up sites that have achieved the
            “ready for anticipated use” (RAU) and/or “protective for people” (PFP)
            performance measures include effective controls to ensure long-term protection to
            human health and the environment.

Background

            Office of Management and Budget Circular A-123, Management’s Responsibility
            for Internal Controls, states that management has a fundamental responsibility to
            develop and maintain effective internal control and that organization, policies and
            procedures are tools to help program managers achieve results and safeguard the
            integrity of their programs. The Government Performance and Results Act of
            1993, amended in 2010, requires the EPA to clearly describe the goals and
            objectives of its programs, identify resources and actions needed to accomplish
            these goals and objectives, develop a means of measuring their progress, and
            regularly report on achievements.

            The primary objective the Office of Solid Waste and Emergency Response
            (OSWER) cleanup program is to ensure that the cleanup of contaminated sites is
            protective of human health and the environment. In 2006, OSWER issued interim
            guidance for reporting performance measures, including site reuse measures.
            OSWER describes the measures as “a first step toward reporting data as a common
            set of measures.” The guidance describes the reuse measures’ benefits to society as
            helping reassure interested parties (property owners, workers, investors, potential
            buyers or developers, etc.) that the sites are protective not only for the current use
            but for reuse in the reasonably anticipated future. OSWER indicated the reuse
            measures help communicate broader cross-programmatic, regional and national
            progress in getting properties through the cleanup process.

            Cross-Program Revitalization Measures (CPRM) include sites from a range of
            OSWER programs:

                  Superfund.
                  Brownfields.
                  Resource Conservation and Recovery Act Corrective Action (RCRA CA).
                  Underground Storage Tank (UST).



14-P-0364                                                                                       1
            The PFP performance measure is the number of sites and acres at which there is
            no complete pathway for human exposures to unacceptable levels of
            contamination based on current site conditions, and is achieved through:

                  Environmental investigations.
                  Response actions that treat, contain or remove contaminated media that
                   make it protective for current use/conditions.
                  Solutions that limit or restrict human use and associated exposures through
                   engineering controls such as caps or institutional controls such as notices
                   and easements.

            The RAU performance measure is the number of acres and sites at which all three
            of the following are achieved:

                  There are no complete pathways for human exposure to unacceptable
                   levels of contamination based on current site conditions.
                  All cleanup goals have been achieved for media that may affect current
                   and reasonably anticipated future land uses of the acres or sites so that
                   there are no unacceptable risks.
                  All institutional or other controls identified as part of the response action
                   to help ensure long-term protections have been put in place.

            There are also two voluntary indicators used to promote the collection of
            information needed to help describe revitalization accomplishments—the
            Status of Use and Type of Use indicators. The Status of Use indicator captures
            information about whether a site is being used; sites and acres will be classified as
            unused, in continued use, reused or planned reuse. The Type of Use indicator
            describes how the acres at a site are being used when the site reuse determinations
            are made. There are six categories of Type of Use Indicators:

                  Commercial and Public Service.
                  Green Space.
                  Industrial.
                  Military and Other Federal.
                  Mixed.
                  Residential.

            Implementation of CPRM Performance Measures

            As shown in Table 1, between the adoption of guidance for the reuse performance
            measures in 2006 and the end of fiscal year (FY) 2013, OSWER designated over
            400,000 reuse sites, the majority of which are UST sites.




14-P-0364                                                                                          2
            Table 1: Total number of RAU sites as of September 30, 2013
                   Program                      Number of RAU sites
             Superfund                                      662
             RCRA CA                                        904
             Brownfields                                  1,694
             UST                                        437,914
              Total                                     441,174
            Sources: OSWER’s programs for FY 2011 data and OSWER’s
            FYs 2012 and 2013 accomplishment reports.


            The EPA reported these sites in its FYs 2010, 2012 and 2013 accomplishment
            reports to the public. The sites are reported cumulatively, beginning in 2008 when
            the EPA first began measuring site reuse progress.

            EPA maintains oversight authority over all states whether delegated or not. But,
            for delegated programs (RCRA CA and UST) - - and for the Brownfields
            program, states have primary authority. For those states where the program is
            delegated, the agency establishes a Memorandum of Agreement with the state that
            promotes coordination and clarifies the general roles and responsibilities between
            the EPA and the states. As a result, the EPA relies primarily on the states to
            ensure these cleanup programs are effectively implemented. States are required to
            report information confirming effective implementation into the EPA’s
            Brownfields and RCRA CA databases, and the EPA regions review the
            information to determine whether the required data were submitted and that sites
            were cleaned up and met the PFP and RAU criteria. Table 2 provides a
            description of how RAU designations are made.

            Table 2: How RAU designations are made
                Program                             How RAU designations are made
             Superfund            EPA regions determine when a site has achieved the reuse
                                  measures. The regions complete a checklist and enter the data in the
                                  EPA’s Comprehensive Environmental Response, Compensation and
                                  Liability Information System.
             RCRA CA              EPA regions determine when a site has achieved the reuse
                                  measures. States enter the information into OSWER’s RCRA CA
                                  database to indicate that a site meets OSWER’s reuse definition.
             Brownfields          EPA regions determine when a site has achieved the reuse
                                  measures. Grantees enter the information into OSWER’s Brownfields
                                  database to indicate that a site meets OSWER’s reuse definition.
             UST                  EPA regions determine when a site has achieved the reuse
                                  measures. States determine when sites are cleaned up and report
                                  the number of sites that meet OSWER’s reuse definition.
            Source: OIG analysis of each program’s process for designating sites RAU.




14-P-0364                                                                                           3
            Responsible Offices

            The Immediate Office within OSWER has overall responsibility for the CPRM.
            Within OSWER, the following offices have responsibilities related to the
            performance measures.

                  Office of Superfund Remediation and Technology Innovation

                  EPA regions determine when a site has achieved the reuse measures. The
                  regions complete a checklist and enter the data in the EPA’s Comprehensive
                  Environmental Response, Compensation and Liability Information System.
                  The checklist also documents information for the two voluntary indicators
                  (Status of Use and Type of Use). A Five-Year Review is required for sites
                  where hazardous substances remain onsite above levels which permit
                  unlimited use and unrestricted exposure, and provides an opportunity to
                  evaluate the implementation of a remedy to determine whether it remains
                  protective of human health and the environment. The federal Superfund
                  program is not delegated to the states, although some sites are state-led.

                  Office of Resource Conservation and Recovery

                  Although the EPA is ultimately responsible for the RCRA CA cleanup
                  program, it has delegated the program to most states. As a result, those
                  states determine when sites achieve the reuse performance measures using
                  the agency’s definitions of PFP and RAU. The regions check the program
                  database to verify that the performance measure data have been input.

                  Office of Brownfields and Land Revitalization

                  The Brownfields program uses a Property Profile Form, which grantees
                  access and update in the Brownfields database—the Assessment, Cleanup,
                  and Redevelopment Exchange System (ACRES). States oversee a phase 1
                  assessment of the site to determine whether a cleanup is necessary. If
                  further assessment and/or a cleanup and institutional controls are not
                  required, the site meets the RAU definition. If a cleanup is needed, the site
                  receives the reuse designation after the cleanup is completed and no
                  further action is necessary. Once the site meets the reuse criteria, OSWER,
                  through ACRES, designates the site as RAU.

                  Office of Underground Storage Tanks

                  The reuse measures for the UST program are achieved when a state cleanup
                  of a confirmed release is completed. The state determines when these sites
                  are cleaned up and reports the number of cleaned-up sites to its regional EPA
                  office. Regional offices then submit these numbers to EPA headquarters,
                  which reports these sites as RAU in EPA accomplishment reports.



14-P-0364                                                                                     4
Scope and Methodology
                We performed our work from April 2012 to July 2014. We conducted this
                performance audit in accordance with generally accepted government auditing
                standards. Those standards require that we plan and perform the audit to obtain
                sufficient, appropriate evidence to provide a reasonable basis for our findings and
                conclusions based on our audit objectives. We believe that the evidence obtained
                provides a reasonable basis for our findings and conclusions based on our audit
                objectives.

                Included in our evaluation was OSWER’s implementation of two CPRMs—
                PFP and RAU. We reviewed these two reuse measures for three OSWER
                programs—Brownfields, RCRA CA and UST. We did not include Superfund sites
                because we issued a report1 on OSWER’s management controls to ensure
                Superfund Five-Year Reviews are thorough, meet policy, and lead to well-
                supported determinations that accurately report how well cleanup remedies
                protect human health and the environment.

                We reviewed information supporting OSWER’s site reuse determinations for
                90 sites in the RCRA CA, Brownfields and UST programs. The sites are located
                in Florida, Georgia, Louisiana, New Mexico, South Carolina and Texas, and
                represented 29 RCRA CA sites, 32 Brownfields sites and 29 UST sites. All states
                we reviewed were delegated for RCRA CA and UST. We selected sites based on
                the age of the site, number of acres designated PFP or RAU, the type of facility,
                and the proximity of sites to each other. For the RAU sites, we requested
                supporting documentation from OSWER. We compared the supporting
                documentation with the information in the database to test the accuracy of the
                databases and determine whether the site reuse designations were adequately
                supported.

                To accomplish our objective, we interviewed EPA managers and staff in the
                following OSWER Offices: Superfund Remediation and Technology Innovation,
                Resource Conservation and Recovery, Underground Storage Tanks, and
                Brownfields and Land Revitalization. We also interviewed managers and staff in
                Regions 4 and 6 for each of the four OSWER programs.

                We reviewed key documents, including: Interim Guidance for OSWER Cross-
                Program Revitalization Measures, Guidance for Documenting and Reporting
                Performance in Achieving Land Revitalization, Guidance for Documenting and
                Reporting RCRA CA Land Revitalization Indicators and Performance Measures,
                Guidance for Preparing Superfund Ready for Reuse Determinations, Superfund
                Five-Year Review Guidance, OSWER’s December 2010 Cross-Program
                Revitalization Measures report and FYs 2011 and 2013 accomplishment reports,


1
 EPA Office of Inspector General (OIG) Report No. 12-P-0251, Stronger Management Controls Will Improve EPA
Five-Year Reviews of Superfund Sites, issued February 6, 2012.


14-P-0364                                                                                                5
            FY 2013 National Program Manager’s Guidance, and UST Performance
            Measures Definitions.

            We reviewed how EPA Regions 4 and 6 oversee measurement and tracking of
            sites that achieve the reuse performance measures. We reviewed the
            Memorandums of Agreement between regions and states. We reviewed
            No Further Action letters, Completion Letters, and Site Rehabilitation Completion
            Orders. We reviewed RCRA CA facility permits, RAU documentation forms, and
            Institutional Controls Tracking Information forms. We reviewed Brownfields
            Property Profile forms, State Certificates of Completions, site assessment reports,
            and technical documents related to the selected sites. We also reviewed UST
            Closure Reports.




14-P-0364                                                                                    6
                                 Chapter 2
           EPA’s Performance Measures for
   Some Cleanup Programs Missing Needed Controls
   to Ensure Long-Term Protection of Human Health
            OSWER does not have adequate procedures to verify the accuracy of sites that
            have been designated PFP and RAU. Due to ineffective oversight controls:

                  The RCRA CA program does not always require documentation to support
                   designations. Region 4 was unable to provide supporting documentation
                   for six of the 16 RCRA CA reuse designations we sampled.

                  Although the Brownfields program receives supporting documentation, it
                   does not sufficiently review the documentation to verify accuracy. We
                   could not verify the reuse designation for 10 of the 32 Brownfields sites
                   we sampled. OSWER was unaware that three of the 10 sites were
                   designated RAU but were later remediated for asbestos contamination.

                  The UST program, which represents 99 percent of the 441,174 RAU sites,
                   has the least controls; states do not provide site specific information or
                   supporting documentation for the designations. States with delegated
                   authority submit the number of UST RAU sites, but do not provide the
                   names of those sites or documentation to support RAU designations.
                   Further, OSWER qualifies in public reports that it is unable to identify
                   whether any institutional controls, if needed, are in place at UST reuse
                   sites. OSWER acknowledges that this is a limitation in meeting the
                   definition of RAU. The regions were able to obtain adequate RAU support
                   from the states for the 29 RAU designations we sampled, but we were
                   only able to verify designations where states made the lists of cleaned-up
                   UST sites publicly available.

            The lack of details and support for information provided to the EPA causes
            questions about the value of the RAU measure, and OSWER’s public reports may
            contain unreliable information. Human health and environmental risks may occur
            if sites are prematurely designated as protective and ready for use.




14-P-0364                                                                                      7
EPA Has Limited Controls to Assure Accurate Initial Site Designations
as PFP and RAU
            Our review of Brownfields, RCRA CA and UST sites found that OSWER
            prematurely designated some sites as PFP and RAU. Also, OSWER was unable to
            provide support for other sites, and some regional staff were not aware of
            OSWER’s tracking and reporting of contaminated sites achieving reuse
            performance measures. These weaknesses occurred because OSWER senior
            management over-relied on delegated states and grantees and focused on
            reporting the accomplishments. We found the following for each program
            reviewed.

            Brownfields Program

            The EPA incorrectly reported 10 of the 32 Brownfields sites we reviewed, or
            31 percent, as RAU before ensuring that the requirements for sites achieving
            RAU status were fulfilled. The sites were reported incorrectly because guidance
            did not require EPA Brownfields staff to review the documents submitted by the
            grantees to verify the accuracy of the reported RAU.

            Currently, the EPA relies primarily on the Brownfields grantees and states to
            provide site information needed to verify that the site meets the conditions for
            achieving OSWER’s reuse performance measures. OSWER’s Office of
            Brownfields and Land Revitalization staff said Brownfields grantees enter site
            information into the EPA’s Brownfields database—ACRES. They also said that
            the EPA Regional Project Officer reviews that information to ensure the database
            contains the information needed for OSWER to accurately make site reuse
            designations. As part of the grant agreement, grantees are asked to complete a
            Property Profile Form. The form includes data on environmental assessments,
            cleanup activities, contaminants found at the site, institutional and engineering
            controls, and basic geographic information. The grantee completes the form,
            which is located in ACRES. According to the Brownfields staff, the EPA reviews
            the database to determine whether the required fields that meet the site reuse
            definition are completed.

            Although EPA regional offices receive site assessment and site cleanup reports—
            which include information on site conditions, contaminants found and cleanup
            remedies used—the regions do not regularly review these reports to verify the
            accuracy of the database. Region 4 staff said this was because there are too many
            documents to review. When the assessment grant is awarded, the grantee
            performs an assessment of the site and reports on what it finds. The assessment
            report either recommends that there are no “Recognized Environmental
            Concerns,” in which case it makes a No Further Assessment recommendation, or
            that further assessment and cleanup is needed. After the site has been cleaned up,
            the state would issue a No Further Action notification.



14-P-0364                                                                                     8
            According to the EPA’s interim CPRM guidance, when no cleanup is required the
            site is considered PFP, and because no cleanup is required the site is also
            considered RAU. CPRM guidance does not require the EPA to read these reports.
            EPA regional staff did not review the state’s assessment reports to ensure sites
            were entirely cleaned up and ready for reuse. EPA regional staff were unaware
            that three of the 10 Brownfields sites were remediated for asbestos contamination
            after the sites had received the RAU designation. If region staff had reviewed the
            assessment reports, they would have identified the presence of asbestos and
            accurately determined that the sites should not be considered RAU.

            RCRA CA Program

            The RCRA CA CPRM guidance requires state project managers to document on
            the RAU determination form when a facility has met the criteria for the RAU
            performance measure. States with delegated RCRA CA authority submit the
            determination forms to the EPA and the EPA enters the information into the
            EPA’s RCRA CA’s database, called RCRAInfo. Both Regions 4 and 6 use the
            data to verify that sites have met the criteria to meet the reuse performance
            measures. In addition, a Region 6 manager stated that the region uses an RAU
            checklist to compare to RCRAInfo, and that other support for information entered
            into RCRAInfo is maintained at the state.

            Region 6 provided us with RAU determination forms for the 13 sites in the region
            reviewed, and the forms were adequate support for the reuse determinations.
            However, when we requested from Region 4 supporting documentation for the
            16 RAU sites reviewed for that region, the region needed to contact the states for
            the information. The states provided a mix of documentation, providing adequate
            support for 10 initial reuse designations but not for the remaining six. Region 4
            managers said the region does not keep the supporting documents (RAU
            determination forms and institutional control documents) because they review the
            information used to support the initial RAU designations in RCRAInfo at the end
            of each fiscal year. This review, however, does not verify that sufficient
            documentation exists to justify the states’ reuse designations, which could result
            in the EPA wrongly designating sites as PFP and RAU.

            UST Program

            Despite the fact that the UST sites comprise over 99 percent of the reuse sites
            reported through the end of FY 2013, the EPA receives and reviews the least
            information for those sites. At the end of FY 2013, we found that 437,914 of the
            441,174 RAU sites were UST sites. Considering this large number, it would not be
            feasible or practical for the EPA to receive and review site-specific documentation
            for all of the UST sites. However, obtaining supporting documents for a sampling
            of sites would enable the EPA to test the accuracy and completeness of the
            information used to support the reuse designations.




14-P-0364                                                                                    9
            The UST program is delegated to 38 of the 50 states. The delegated states are not
            required to submit information to the EPA supporting cleanups, and they provide
            limited information. States send the EPA regional offices reports on the number
            of sites that have been cleaned up without a list of site names or verification of
            state-reported information. These submittals are done quarterly in Region 4 and
            semiannually in Region 6. Some states in Regions 4 and 6 had publicly available
            lists of cleaned-up UST sites while other states did not. As a result, to verify reuse
            status, we had to alter our sample to select states that had the cleaned-up site lists.

            OSWER reports the number of cleaned-up sites as the number of sites achieving
            reuse status in annual accomplishment reports. For Regions 4 and 6, we requested
            the supporting documents for 34 sites designated as RAU. The information
            provided, which the regions needed to request from the states, showed evidence
            that the sites were cleaned to the level of meeting the definition of the reuse
            performance measures.

EPA Has Limited Controls for Identifying Changes in Site Conditions
and Uses in the Long Term
            After sites have been designated PFP and RAU, OSWER has limited controls to
            verify that the designations continue to be valid and the sites remain protective of
            human health and the environment. While agency guidance states that the PFP
            measure has to be accomplished for a site to be RAU, the PFP is only good for the
            “point in time” in which the determination is made. However, the EPA
            cumulatively reports the RAU sites, without qualifying that it is a “point in time”
            or without citing limitations on the continued validity of the measures reported.
            The accuracy of the PFP measure is needed in order for EPA to help reassure
            interested parties, including communities, that there is no current complete
            pathway for human exposures to unacceptable levels of contamination.

            Brownfields, RCRA CA and UST managers at both headquarters and the regions
            stated that their programs do not include mechanisms that require an additional
            review to verify that sites remain protective of human health and the environment
            after the initial designation is made. This is consistent with the CPRM interim
            guidance, which does not require an additional review to confirm that sites remain
            protective.

            The EPA’s CPRM interim guidance does not require states to track the status and
            type of reuse of remediated sites after they are determined to be RAU. The
            interim CPRM guidance lists benefits for tracking reuses of cleaned-up sites, but
            most of the listed benefits involve identifying trends in uses and prioritizing sites,
            not on ensuring whether sites remain protective for human health. Further,
            investors could rely on potentially inaccurate information to make business
            decisions about a site based on outdated or incorrect information in the EPA’s
            publicly available databases. Tracking and monitoring revitalized sites that are
            reused as intended by the cleanup and remediation plan would help better ensure


14-P-0364                                                                                       10
            that the reused sites are used properly as intended. We found the following for the
            three programs reviewed.

            Brownfields Program

            For Brownfields sites, there is minimal contact between the state and EPA after
            the cleanup has been accomplished, and changes in site conditions or site use may
            go undetected by the EPA. The Brownfields program maintains that under the
            Brownfields amendment to the Comprehensive Environmental Response,
            Compensation, and Liability Act (CERCLA), it does not have the authority to
            conduct long-term oversight at Brownfields sites. EPA Office of Brownfields and
            Land Revitalization officials maintain that the Brownfields program is a grants
            management program that provides seed money for funding site assessments and
            cleanups that the states perform, not the EPA. Those EPA officials added that
            when the grant period ends, they cannot require grantees to report changes in site
            conditions or reuse to the EPA.

            We do not agree with the EPA position. Although the cleanup is managed by the
            states and the EPA does not participate in cleanups, the OIG found that under
            CERCLA, the EPA has the authority to add reporting requirements to the grant
            agreement as deemed necessary and should do so to meet the intent of CERCLA.
            For the length of the grant agreement, the EPA requires the grantee to add and
            update information in the agency’s database when appropriate. Since site use can
            change, the EPA should either build in controls to better assure that site
            conditions remain safe, or publicly disclose that the CPRM determinations may
            not remain accurate over time.

            We found that for all states in our review, Brownfields database information
            included past uses of each site but only a few sites had information in the database
            regarding the reuse of properties, whether it was planned or actual reuse. Region 4
            managers said that their knowledge of site reuse of developed Brownfields sites is
            “hit or miss.” They added that they would like to track reuse but there were
            resource issues. Some grantees submit Return on Investment Reports, but regional
            managers said that this is more of the exception and not the rule.

            Brownfields officials acknowledged that the reuse of cleaned-up sites could
            change from the intended uses, and one Brownfields official said “hopefully states
            are monitoring the uses, especially when there are uses that should not occur.”

            RCRA CA Program

            Many RCRA CA sites have ongoing operations and, therefore, there is some
            opportunity for the EPA to track changes because of periodic interaction between
            the state and EPA. However, the communications between states and the EPA do
            not encompass effective controls for reporting changes at RCRA CA sites.
            RCRA CA headquarters managers said that once the RAU designation is made



14-P-0364                                                                                    11
            there is no requirement for states and regions to periodically reevaluate the reuse
            determination to verify its continued validity.

            The EPA relies on the state project managers to update the Ready for Anticipated
            Use Determination form and send it to the EPA region if changes occur, at which
            point the region should enter the information into RCRAInfo. A RCRA CA
            headquarters manager said the form is a one-time submittal and there is no
            requirement for the state to periodically verify that the reuse designation remains
            valid. However, these forms are not normally checked by the regional EPA staff
            after a site is RAU. Further, when the states do not submit the determination form
            or do not inform the region of a change in site status, EPA Region 4 can only
            identify the site changes through RCRAInfo. Without the form, EPA has no
            information on how the site use or site conditions have changed and their impact,
            which could result in EPA reporting erroneous site information to the public.
            Also, the site may no longer be protective of human health and the environment.

            State oversight of RCRA CA sites extends beyond the time a site is initially
            designated RAU. Therefore, the EPA and the states should track changes in site
            conditions and use. Most sites receive RCRA CA permits to ensure the site is
            being operated properly. The EPA incorporates corrective action into a facility’s
            permit. According to a Region 6 RCRA CA manager, the permits are not used to
            verify the accuracy of sites’ long-term RAU status. The EPA should include
            conditions in the permit that require the state to revise the determination form to
            show that changes in site use or conditions have occurred and whether the RAU
            designation should be removed. The permit should further stipulate that these
            revised determination forms be submitted to the EPA. EPA review of submitted
            forms would help it and the states better ensure that sites remain protective of
            human health and the environment.

            Region 4 RCRA CA staff stated they are not aware of the CPRM voluntary
            indicators (status and type of reuse) and believed site reuse information is relevant
            information the EPA needs to know. Receiving this information will provide the
            controls needed for the EPA to continue to verify that site conditions and site use
            remain PFP and RAU.

            UST Program

            EPA headquarters and regional managers informed us that there are no controls in
            the UST program to ensure sites continue to be protective of human health long
            term. EPA headquarters managers also said that after a site has been cleaned up,
            the state generates a “No Further Action” letter for each site and maintains site-
            specific information but does not submit that information to the EPA. States
            report cumulative site cleanup numbers to EPA regions, which then provide these
            totals to the OSWER Office of Underground Storage Tanks. However, states do
            not provide the names of the RAU sites or the documentation that supports the
            reuse designations. OSWER also noted in its 2010 CPRM report that it is unable



14-P-0364                                                                                     12
                 to identify whether any institutional controls, if needed, are in place at UST reuse
                 sites, and acknowledges that this limitation is an inconsistency with the RAU
                 definition. A similar qualification exists in the 2013 Accomplishments report.
                 Having institutional controls in place is one of the requirements for a site to meet
                 the criteria for reuse. Because the majority of RAU sites are UST, not knowing
                 the status of institutional controls calls into question the validity of the reuse
                 designation for most of OSWER’s RAU sites.

                 The EPA’s regional UST managers and staff said they were unfamiliar with the
                 CPRM performance measures. They said they report the total number of
                 cleaned-up sites to EPA headquarters, and headquarters then reports the sites as
                 achieving reuse status. States are not required to report when site use or
                 conditions change. As a result, the EPA may be unaware when such changes
                 occur. If the use of a site changes, or the conditions change, the site may no
                 longer be protective of human health and the environment.

EPA Can Improve Controls by Finalizing CPRM Interim Guidance
                 The EPA issued its CPRM interim guidance in 2006,2 but the guidance is still not
                 final. The agency stated in the 2007 Guidance for Documenting and Reporting
                 Performance in Achieving Land Revitalization that the CPRM interim guidance
                 established the overarching framework for these measures, but directed each of
                 the individual OSWER programs to develop companion guidance outlining
                 program-specific implementation. The Superfund/Federal Facilities cleanup
                 program and the RCRA CA program did develop specific guidance for its
                 respective programs, while the Brownfields and UST programs did not.

                 During our review of the CPRM, we learned that some of the Brownfields and
                 UST program regional staff are not aware of the CPRM measure or how states’
                 hazardous waste cleanup information is used by EPA headquarters to report
                 CPRM performance measure accomplishments. EPA regional cleanup program
                 staff are not reviewing the state cleanup reports to verify whether the data input
                 by Brownfields, RCRA CA and UST grantees is correct. Reviewing state reports
                 for accuracy in the programs’ databases is important, as the cleanups are reported
                 by OSWER as RAU and PFP in public reports and websites. Further, some
                 Brownfields and UST program staff do not know the relationship between their
                 respective state site cleanups and the CPRM. Region 6 Brownfields staff informed
                 us that ready for anticipated use “is not a Brownfields assessment grant term and
                 therefore does not apply to a Brownfields assessment grant award commitments
                 or accomplishments.” The EPA has the opportunity to finalize its interim CPRM
                 guidance and address the issues described above.




2
    Interim Guidance for OSWER Cross-Program Revitalization Measures, October 2006.


14-P-0364                                                                                           13
Conclusions
            The EPA has limited controls for verifying or testing the accuracy of information
            that states and grantees are providing to show sites are PFP and RAU. Through its
            accomplishment reports, EPA has reported to the public that over 400,000 sites
            nationwide that were once contaminated or believed to be contaminated are now
            RAU. However, the EPA is relying on states and grantees to voluntarily submit
            accurate site information, and has minimal controls to be sure sites are RAU and
            will remain that way. The results of our review demonstrate the usefulness of
            reviewing supporting documentation for PFP and RAU designations, and the need
            for the EPA to require states to routinely submit this support. The EPA should
            revise the interim CPRM guidance to include the controls needed for ensuring
            sites are accurately designated PFP and RAU.

            The EPA’s reporting of site reuse accomplishments is inaccurate because the
            agency does not report limitations on the validity of the reuse designations and the
            agency does not have controls to verify the accuracy of the initial or continued
            validity of those designations. As a result, the EPA may be inaccurately
            representing the benefits of its measures. This greatly diminishes the value and
            meaning of the EPA’s RAU performance measure. Further, in 2010, 2012 and
            2013 the EPA reported the total and cumulative number of reuse sites for the
            Brownfields, RCRA CA, UST and Superfund programs since 2008 without
            qualifying that the designations were at a “point in time.” Without specifying that
            the number of reuse sites are at a “point-in-time,” the reporting of these sites
            suggests that the reuse determination continues to be valid over time when this
            may not be the case. Therefore, the agency should reconsider whether it should
            use the CPRM measures or it should qualify the information as appropriate.

Recommendations
            We recommend that the Assistant Administrator for Solid Waste and Emergency
            Response:

               1. Improve controls of the CPRM measures by revising the CPRM guidance
                  to require:
                       a. Grantees to track and report the status and type of reuse at RAU
                          sites, instead of voluntary reporting.
                       b. Brownfields and RCRA CA staff to obtain and review grantees’
                          supporting documentation for sites designated PFP and RAU and
                          verify that the grantees provide information in the appropriate
                          OSWER databases.
                       c. UST staff to obtain and review grantees’ supporting documentation
                          for a selected sample of sites designated PFP and RAU and verify
                          that the grantees provided information in the appropriate OSWER
                          databases.


14-P-0364                                                                                    14
               2. After CPRM interim guidance is revised, provide training to regional
                  OSWER staff responsible for verifying states’ PFP and RAU designations
                  to ensure staff are informed of the guidance and what is required.

               3. Stipulate the following in the grant agreements for each program:
                      a. For Brownfields, require grantees to track the status and type of
                         reuse of remediated sites and report that information to OSWER.
                      b. For RCRA CA, whenever there is a change in site conditions or
                         site use, require states to revise the RCRA CA determination form
                         to reflect the changes and have states re-submit the form to
                         OSWER.
                      c. For UST, require states to submit to OSWER and make publicly
                         available site-specific information, including site name.

               4. Correct designations for sites identified as not PFP or RAU.

               5. Appropriately qualify the validity, uses and reliability of the CPRM data
                  reporting in OSWER’s publicly available information systems.

Summary of Agency Response to Draft Report and OIG Evaluation

            We received comments on the draft report from the Assistant Administrator for
            OSWER on August 25, 2014. We held an exit meeting with OSWER staff on
            September 24, 2014.

            The agency disagreed with Recommendations 1, 2 and 3 and resolution efforts are
            in progress. We continue to believe these recommendations are valid and their
            implementation would improve the integrity and value of the RAU measures.

            The agency agreed with Recommendations 4 and that recommendation is open
            with agreed-to actions pending. The agency also agreed with Recommendation 5
            and, as a result of the agency subsequently providing us with a milestone date,
            that recommendation is also open with agreed-to actions pending.

            The agency also suggested changes to the report and we made changes where
            appropriate.

            Appendix A contains the agency’s complete response and well as OIG comments
            on that response.




14-P-0364                                                                                     15
                                Status of Recommendations and
                                  Potential Monetary Benefits
                                                                                                                             POTENTIAL
                                                                                                                             MONETARY
                                                  RECOMMENDATIONS                                                         BENEFITS (in $000s)

                                                                                                              Planned                Agreed-
    Rec.   Page                                                                                              Completion   Claimed      To
    No.     No.                        Subject                           Status1     Action Official            Date      Amount     Amount

     1       14
             1.    Improve controls of the CPRM measures by                U       Assistant Administrator
                   revising the CPRM guidance to require:                           for Solid Waste and
                     a. Grantees to track and report the status and                Emergency Response
                        type of reuse at RAU sites, instead of
                        voluntary reporting.
                     b. Brownfields and RCRA CA staff to obtain
                        and review grantees’ supporting
                        documentation for sites designated PFP
                        and RAU and verify that the grantees
                        provide information in the appropriate
                        OSWER databases.
                     c. UST staff to obtain and review grantees’
                        supporting documentation for a selected
                        sample of sites designated PFP and RAU
                        and verify that the grantees provided
                        information in the appropriate OSWER
                        databases.

     2       15    After CPRM interim guidance is revised, provide         U       Assistant Administrator
                   training to regional OSWER staff responsible for                 for Solid Waste and
                   verifying states’ PFP and RAU designations to                   Emergency Response
                   ensure staff are informed of the guidance and
                   what is required.

     3       15    Stipulate the following in the grant agreements for     U       Assistant Administrator
                   each program:                                                    for Solid Waste and
                     a. For Brownfields, require grantees to track                 Emergency Response
                        the status and type of reuse of remediated
                        sites and report that information to
                        OSWER.
                     b. For RCRA CA, whenever there is a change
                        in site conditions or site use, require states
                        to revise the RCRA CA determination form
                        to reflect the changes and have states
                        re-submit the form to OSWER.
                     c. For UST, require states to submit to
                        OSWER and make publicly available site-
                        specific information, including site name.

     4       15    Correct designations for sites identified as not        O       Assistant Administrator     10/12/14
                   PFP or RAU.                                                      for Solid Waste and
                                                                                   Emergency Response

     5       15    Appropriately qualify the validity, uses and            O       Assistant Administrator     03/31/15
                   reliability of the CPRM data reporting in                        for Solid Waste and
                   OSWER’s publicly available information systems.                 Emergency Response


1   O = Recommendation is open with agreed-to corrective actions pending.
    C = Recommendation is closed with all agreed-to actions completed.
    U = Recommendation is unresolved with resolution efforts in progress.




    14-P-0364                                                                                                                            16
                                                                                    Appendix A

                  Agency Response to Draft Report
                        and OIG Evaluation


                                         August 25, 2014




MEMORANDUM

SUBJECT:       Response to Office of Inspector General Draft Report EPA Needs to Improve Its
               Process for Accurately Designating Land as Clean and Protective for Reuse Project
               No. OPE-FY12-0016

FROM:          Mathy Stanislaus
               Assistant Administrator

TO:            Arthur A. Elkins, Jr.
               Inspector General

Thank you for the opportunity to respond to the issues and recommendations in the subject audit
report. Following is a summary of the agency’s overall position, along with its position on each
of the report recommendations. For those report recommendations with which the agency agrees,
we have provided high-level intended corrective actions and estimated completion dates to the
extent we can. For those report recommendations with which the agency does not agree, we have
explained our position, and proposed alternatives to the recommendations. We would appreciate
the opportunity to meet with you if you do not plan to accept these changes.

AGENCY’S OVERALL POSITION
The Agency works collaboratively with states, tribes, local government, and other stakeholders
to achieve its mission of assessing, cleaning up and restoring contaminated sites to set the stage
for redevelopment or facilitate the continued use of the facility. For the Superfund Program, EPA
directly oversees the cleanup activities. Other EPA programs were designed by Congress to be
delegated or authorized to states (e.g., RCRA Corrective Action, Underground Storage Tanks) or
established as a grant program (Brownfields). In fact, the majority of site-specific cleanup
decisions are made by the state-run or state-delegated programs, including decisions about
protectiveness. These roles and oversight are inaccurately portrayed in various parts of the draft
OIG report.

 OIG Response 1: The OIG has made revisions where appropriate.



14-P-0364                                                                                     17
For example, there are no Brownfield specific regulatory authorities governing the cleanup of
brownfields delegated to the states. The EPA does not have statutory authority to require state
oversight of Brownfields cleanups.

The various roles, responsibilities, and relationships between EPA, states, tribes, and grantees
must be taken into consideration when designing and establishing an effective performance
reporting system. When a program is delegated or authorized to a state or is implemented
through a grant program, EPA relies on that entity to document and report results. These entities
are best placed to address site-specific problems as they arise on a day-to- day basis. EPA works
to strengthen and assist them and has established requirements for data reporting. Any data
reported for the performance measures should adhere to EPA’s quality information policies.

    OIG Response 2: We agree that any data reported for the performance measures should
    adhere to EPA’s quality information policies. As cited in EPA’s Executive Order CIO 2105.0,
    Policy and Program Requirements for the Mandatory Agency-Wide Quality System, Section 6
    (a) (8), assessment of existing data, when used to support agency decisions or other secondary
    purposes, must verify that the data is of sufficient quantity and adequate quality for their
    intended use. As we have demonstrated in our report, OSWER does not have sufficient
    controls and procedures to ensure that the CPRM data meets the quality standards cited in the
    Executive Order.

In that way, the data used to report performance data are reliable and as complete as possible
given the structure of these programs.

The Cross-Program Revitalization Measures (CPRM), including the Ready for Anticipated Use
(RAU) measure, are a few of the numerous performance measures EPA uses to help manage the
program and gauge progress of sites along the cleanup continuum. The OIG inaccurately refers
to these measures as a “CPRM program”.

    OIG Response 3: As cited in Office of Management and Budget Circular A-11, the
    Government Accountability Office defines a program as an organized set of activities directed
    toward a common purpose or goal that an agency undertakes or proposes to carry out its
    responsibilities. Therefore, the CPRM is a program. However, the term is not needed to make
    our point and has been removed from the report.

Four EPA cleanup programs report the RAU measure which allows us to better manage and
communicate at an OSWER level our collective cleanup and reuse related activities and
accomplishments3. The four cleanup programs are facilitated to work together to identify lessons
learned, potential efficiencies, and opportunities to advance site cleanup. EPA is then able to
look at this information collectively across programs and Regions, and gauge overall progress
cleaning up contaminated sites.

The RAU is not a reporting of site-specific risk. The RAU determination by the appropriate
entity is based on information at the time that the determination is made. It may change if the

3
 The RAU is actually made up of specific performance measures from the Superfund, RCRA Corrective Action,
Brownfields, and Underground Storage Tank Programs.

    14-P-0364                                                                                               18
site’s conditions change or if new or additional information is discovered regarding the
contamination or conditions at the site. Thus, the Agency publicly reports the RAU information
at a program level for the state-run or grant programs, not at a site- specific level with the names
of sites; therefore, it is not available to be used to make decisions on site reuse. The one
exception is the Brownfields program, at this time. The Brownfields program is removing the
RAU information from the public information system.

    OIG Response 4: We do not agree that site-specific RAU information is only available to the
    public for Brownfields sites. As can be found at
    http://cumulis.epa.gov/supercpad/cursites/csitinfo.cfm?id=0301376, site-specific RAU
    information is also available for the Superfund program. Instead of removing the site-specific
    RAU information, EPA could qualify this data as recommended in OIG Recommendation 5.

Parties interested in finding out what uses would be protective for a particular property will rely
on site-specific cleanup documents and site-specific institutional controls and contact the
appropriate regulatory agency for more information.4

We plan to improve our communication materials to better explain the use of CPRM, the
conditions under which a RAU determination is made, and that the measures represent a point in
time. We have already begun to do this and will continue to explore ways to better explain the
measures to the public.




4
  We recognize that the lack of data on institutional controls (ICs) for the underground storage tanks program is not
consistent with the definition of the RAU performance measure and we are working with the states to develop a
baseline of current practices related to long-term protectiveness and whether the IC data can be made available.
Nonetheless, we believe the LUST measure is a good indicator of sites ready for anticipate use, given the states’
determination that no further action is currently necessary to protect human health and the environment.


    14-P-0364                                                                                                     19
                                      AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS
                                                            AGREEMENTSs
No.     Recommendation                  High-Level Intended Corrective Action(s)                                    Estimated Completion
                                                                                                                    by Quarter and FY
4       Correct designations for        Once the IG provides EPA with the list of 10 brownfields sites that it      Within 30 days of
        sites identified as not PFP     believes have been mistakenly identified as either PFP or RAU then EPA      receiving the list of
        or RAU                          will review the information in the ACRES database to determine if the       sites from the IG.
                                        IG’s findings are correct and make any necessary changes to the PFP
                                        and/or RAU status of the sites.
                                        (In addition, all our programs will continue to work with regions and states
                                        to correct any inaccuracies as they are identified.) .
5       Appropriately qualify the       EPA will remove the RAU indicator for Brownfields sites from the             1st qtr FY15
        validity, uses, and             Cleanup In My Community database. The CPRM is not intended to be
        reliability of the CPRM         used as a site-specific indicator for brownfields properties, rather it is
        data reporting in OSWER’s       intended to be a measure of progress across the universe of brownfield
        publicly available              sites receiving EPA funding.
        information systems.                                                                                         On-going. EPA is
                                        Furthermore, we are exploring ways to better explain RAU to the public.      adding clarifying
                                        As appropriate, EPA will include in its public communication materials       language to reports
                                                                                                                     and other
                                        that the PFP and RAU measures represents a point in time and will include
                                                                                                                     communication
                                        information about conditions under which a RAU is made to explain            materials about the
                                        potential ICs and ECs may be required.                                       CPRM.


                                                            DISAGREEMENTS
No      Recommendation      Agency Explanation/Response                                                             Proposed Alternative
.
1       Improve Controls of the CPRM measures by finalizing the interim guidance to require 1a, 1b, and 1c.
        (Please note, the use of the term “interim” in the OSWER CPRM guidance did not mean draft. It met an interim step. The final
        step was for program offices to develop their own program specific guidances. The draft CPRM guidance was sent for comment in
        April 2006 and finalized October 2006. )



    14-P-0364                                                                                                                      20
1a   States to track      See responses to 3a, 3b, 3c.
     and report the
     status and type of
     reuse at RAU
     sites, instead of
     voluntary
     reporting.
1b   Brownfields and      The RCRA Corrective Action program will remind Regions that these forms need to         Brownfields and
     RCRA CA staff        be filled out for PFP and RAU and they should work with their states to verify that     RCRA CA should
     to obtain and        these forms are filled out for future RAU and PFP determinations entered into RCRA      work with states to
     review grantees’     Info ( EPA's RCRA corrective action national database.)                                 improve
     supporting                                                                                                   communication about
     documentation        The Brownfields Program’s existing Assessment, Cleanup, and Redevelopment               the CPRM and to
     for sites            Exchange System (ACRES) system is designed and structured to collect brownfield         verify that the
     designated PFP       grantee reported information. Under the grant terms and conditions of the               appropriate forms are
     and RAU              Assessment, Cleanup, Revolving Loan Fund, and State and Tribal Response Program         completed.
     and verify that      grants, grant recipients are required to complete an OMB approved Property Profile      (1st qtr FY15)
     the grantees         Form in ACRES for each property where grant funding is expended. As Brownfields
     provide              grants awarded prior to 2003 do not have a requirement to complete the Property
     information in the   Profile Form under their grant conditions, they are not included in the reporting of
     appropriate          CPRM measures. The Ready for Anticipated Use (RAU) performance measure for
     OSWER                properties where federal brownfields funding has been expended is based on
     databases            information entered by the grantee on the Property Profile Form. An RAU
                          designation depends on documenting that a property meets the three criteria in the
                          RAU definition. As part of grant oversight and monitoring activities, EPA Regional
                          staff assist grantees, providing guidance on the completion of forms, ensuring timely
                          submission of forms, and completing quality assurance reviews of Property Profile
                          Form data. EPA collects property information via ACRES throughout the grant
                          period of performance, however, EPA cannot require grantees to enter information
                          about site activities after the close-out of the Brownfields grant or beyond that
                          approved by our existing information collection request approved under the
                          Paperwork Reduction Act by OMB.



 14-P-0364                                                                                                                      21
1c   UST staff to           Congress has designed and funded the UST program for state implementation             UST staff should work
     obtain and review primarily. States make site-specific cleanup decisions, including determining when a       with states to properly
     grantees’            site is clean enough to be closed. EPA works with state partners to provide             submit data into
     supporting           regulations, guidance, policy, and funding resources to support the infrastructure of   OSWER’s data system
     documentation        state UST program so that the private and state resources can directly finance the      and perform
     for a selected       fieldwork necessary to clean up releases from federally regulated tanks releases.       appropriate QA/QC
     sample of sites                                                                                              checks.
     designated PFP                                                                                               (1st qtr FY15)
     and RAU and
     verify that the
     grantees provided
     information in the
     appropriate
     OSWER
     databases.
2.   After CPRM           As noted earlier, the draft’s authors may have misunderstood the context for the        OSWER AA should
     interim guidance “interim” nature of the CPRM guidance. Nonetheless, OSWER will improve                      issue a memo to the
     is finalized,        communications with the EPA regions on the CPRM tracking and reporting of               regions to ensure staff
     provide training     contaminated sites by issuing a memo from the Assistant Administrator to the regions    are informed of the
     to regional          providing additional information on the measures, how they are used, and                CPRM guidance, how
     OSWER staff          expectations for reporting.                                                             the measures are used,
     responsible for                                                                                              and what is required.
     verifying states’                                                                                            (1st qtr FY15)
     PFP and RAU
     designations to
     ensure staff are
     informed of the
     guidance and
     what is required
3.   Stipulate the following in the grant agreements for each program:
3a   For Brownfields, The Federal Brownfields program, in accordance with the Brownfield amendments to            OBLR should expand
     require states to    CERCLA, is a national competitive grant program. It is not a regulatory or state-       ACRES training to
     track the status     delegated program. In keeping with this grant authority, Brownfields property           place greater emphasis

 14-P-0364                                                                                                                      22
     and type of reuse     cleanups are managed by the grant recipient and assessment and cleanup activities are    on grantee reporting
     of remediated         reported at a point in time to document grant funded activities. Moreover, while EPA     and enrollment of
     sites and report      brownfield grants fund assessment or cleanup, but not redevelopment, property            property cleanups in
     that information      specific reuse information often is not available at grant closure to report. Finally,   State and Tribal VCP
     to OSWER.             the internal CPRM measures are a snapshot in time and are not meant to track the         programs, where
                           changing conditions at a site. As mentioned earlier, EPA cannot require grantees to      feasible.
                           enter information about site activities after the close-out of a Brownfields             (1st qtr FY15 -
                           grant. Specific details about the scope of state VCP programs can be found in the        ongoing)
                           State Brownfields and Voluntary Response Program report, available online at
                           http://www.epa.gov/brownfields/state_tribal/pubs.htm.
3b   For RCRA CA,          For the delegated CA states, cleanup decisions are made by states, EPA’s recognition     ORCR should
     whenever there is     of such cleanup decisions are based on these state decisions, and that the RAU is        continue to
     a change in site      simple a cumulative sum of these state cleanup decisions.                                recommend that when
     conditions or site                                                                                             Regions or States
     use, require states                                                                                            become aware of a
     to revise the                                                                                                  change in site
     RCRA CA                                                                                                        conditions or site use
     determination                                                                                                  that impacts the status
     form to reflect the                                                                                            of PFP or RAU, they
     changes and have                                                                                               should revise the PFP
     states re-submit                                                                                               and RAU
     the form to                                                                                                    determination and
     OSWER.                                                                                                         revise the forms.
3c   For UST, require      States are the primary implementing agencies and make site-specific cleanup              This recommendation
     states to submit to   decisions, including determining when a site is clean enough to be closed. EPA           does not match the
     OSWER and             works with state partners to provide regulations, guidance, policy, and funding          nature of the UST
     make publicly         resources to support the infrastructure of state UST program so that the private and     program and should be
     available site-       state resources can directly finance the fieldwork necessary to clean up releases from   deleted.
     specific              federally regulated tanks releases.
     information,
     including site
     name.


 14-P-0364                                                                                                                        23
CONTACT INFORMATION
If you have any questions regarding this response, please contact Brigid Lowery, Director,
OSWER Center for Program Analysis on 202-566-0198.




  14-P-0364                                                                                  24
                                                                              Appendix B

                                    Distribution
Office of the Administrator
Assistant Administrator for Solid Waste and Emergency Response
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Deputy Assistant Administrator for Solid Waste and Emergency Response
Director, Center for Program Analysis, Office of Solid Waste and Emergency Response
Audit Follow-Up Coordinator, Office of Solid Waste and Emergency Response




  14-P-0364                                                                           25
